1a
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

Nos. 20-1061; 20-1062 and 20-1063
-----------------------------------------------------------------------

In re: VENOCO LLC, d/b/a Venoco, Inc., et al.,
Debtors
EUGENE DAVIS, in his capacity as Liquidating
Trustee of the Venoco Liquidating Trust
v.
STATE OF CALIFORNIA;
CALIFORNIA LANDS COMMISSION,
Appellants
---------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the District of Delaware
(D.C. Civil Action Nos. 1-19-mc-00007;
1-19-mc-00011 and 1-19-cv-00463)
District Judge: Honorable Colm F. Connolly
---------------------------------------------------------------------------------------------------------

Argued September 23, 2020
Before: AMBRO, PORTER, and ROTH, Circuit Judges
(Opinion filed: May 24, 2021)

2a
Edward K. Black
Office of Attorney General of Delaware
Delaware Department of Justice
820 North French Street
Carvel Office Building
Wilmington, DE 19801
Mitchell E. Rishe (Argued)
Office of Attorney General of California
300 South Spring Street
Suite 1702
Los Angeles, CA 90013
Counsel for Appellant State of California
David M. Fournier
Kenneth A. Listwak
Troutman Pepper LLP
Hercules Plaza, Suite 5100
1313 Market Street
Wilmington, DE 19899
Steven S. Rosenthal (Argued)
Marc S. Cohen
Laura K. McNally
Alicia M. Clough
Loeb & Loeb LLP
901 New York Avenue, N.W.
Suite 300 East
Washington, DC 20001
Counsel for Appellant California Lands Commission
Mark E. Dendinger
Bracewell LLP
185 Asylum Street
CityPlace I, 34th Floor
Hartford, CT 06371

3a
Warren W. Harris (Argued)
Bracewell LLP
711 Louisiana Street
Suite 2300
Houston, TX 77002
Jason Hutt
Brittany M. Pemberton
Bracewell LLP
2001 M Street, N.W.
Suite 900
Washington, DC 20036
Counsel for Appellee
-----------------------------------------------------------------------

OPINION OF THE COURT
-----------------------------------------------------------------------

AMBRO, Circuit Judge
States can generally assert sovereign immunity to
shield themselves from lawsuits, but bankruptcy proceedings are one of the exceptions. The Supreme Court
held in Central Virginia Community College v. Katz,
546 U.S. 356, 378 (2006), that, by ratifying the Bankruptcy Clause of the U.S. Constitution, states waived
their sovereign immunity defense in proceedings that
further a bankruptcy court’s exercise of its jurisdiction
over property of the debtor and its estate (called “in
rem jurisdiction”). Here, we apply Katz to a bankruptcy
adversary proceeding brought by a liquidating trustee
for the debtors’ assets seeking compensation from the
State of California and its Lands Commission for the
alleged taking of a refinery that belonged to the

4a
debtors. Because that proceeding asks the Bankruptcy
Court to enforce rights in the property of the debtors
and their estates1 and will facilitate the fair distribution of their assets to creditors, it furthers the Court’s
in rem functions. Katz thus forecloses the assertion of
sovereign immunity by both California and its Lands
Commission, and we affirm the District Court’s order
affirming the Bankruptcy Court’s decision.
I.

FACTS AND PROCEDURAL HISTORY

Venoco, LLC and its affiliated debtors (collectively,
“Venoco” or the “Debtors”)2 operated the Platform
Holly drilling rig in the South Ellwood Oil Field (the
“Offshore Facility”) off the coast of Santa Barbara, California. After extraction, the oil and gas were transported three miles north to the Ellwood Onshore
Facility (the “Onshore Facility”) for processing and refining. Venoco did not own the Offshore Facility and instead leased it from the State of California (the “State”)
acting through its Lands Commission (together with
the State, the “California Parties”). Unlike the Offshore Facility, Venoco owns the Onshore Facility and
holds the air permits to use it.

1

“Under the Bankruptcy Code . . . a petition ‘creates an estate’ that, with some exceptions, comprises ‘all legal or equitable
interests of the debtor in property as of the commencement of the
case.’ ” City of Chicago v. Fulton, 141 S. Ct. 585, 589 (2021) (quoting 11 U. S.C. § 541(a)(1)).
2
The parties do not distinguish the various debtor entities.

5a
Following a pipeline rupture in 2015, Venoco could
no longer get its oil and gas to the market. It was unable to reactivate the pipeline after it emerged from an
initial bankruptcy filing in 2016, and it filed for Chapter 11 bankruptcy again on April 17, 2017 (the latter
colloquially known as a “Chapter 22”). That same day,
Venoco quitclaimed (i.e., abandoned) its leases, thereby
relinquishing all rights and interests in the Offshore
Facility, including the wells and the Platform Holly
drilling rig. Concerned about public safety and environmental risks, the Commission took over decommissioning the rig and plugging the abandoned wells. It
initially agreed to pay Venoco approximately $1.1 million per month to continue operating the Offshore and
Onshore Facilities. In September 2017, a third-party
contractor took over operations from Venoco. In place
of the previous agreement, the Commission and Venoco
entered into a Gap Agreement, under which the Commission agreed to pay $100,000 per month, as well as
additional compensation, for access to and use of the
Onshore Facility. Meanwhile, the Commission also asserted its rights as Venoco’s creditor. In October 2017,
it filed an estimated $130 million contingent claim
against Venoco for reimbursement of plugging and decommissioning costs, including $29 to $35 million for
the cost to operate the Onshore Facility and the rig at
the Offshore Facility.3

3

In October 2018, the Commission also filed in the Bankruptcy Court an “Assertion of Administrative Expense Claim and
Reservation of Setoff Rights,” which sought to preserve the Commission’s right to “set off its allowable administrative claim

6a
The Gap Agreement, as its name suggests, was not
a permanent solution. For several months before the
Bankruptcy Court confirmed the Debtors’ plan of liquidation (the “Plan”) in May 2018, Venoco and the
Commission negotiated over a potential sale of the Onshore Facility to the Commission. When those negotiations failed, the Commission stopped paying what it
owed under the Gap Agreement. Invoking its police
powers to take necessary actions to protect the environment and public safety, the Commission argued it
could continue using the Onshore Facility without payment.
Once the Plan became effective on October 1, 2018,
the estates’ assets, including the Onshore Facility,
were transferred to a liquidation trust (the “Trust”).
Eugene Davis, the court-appointed liquidation trustee
(the “Trustee”), became responsible for collecting, holding, liquidating and distributing the Trust’s assets for
the benefit of Venoco’s creditors.
After the Gap Agreement was terminated on October 15, 2018, the Trustee filed in the Bankruptcy
Court an adversary proceeding against the California
Parties (the “Adversary Proceeding”). It is primarily a
claim for inverse condemnation, “a cause of action
against a governmental defendant to recover the value
of property which has been taken in fact by the governmental defendant.” Knick v. Twp. of Scott, 139 S. Ct.
against any claims that have been or may be asserted [against it]
by the [Trustee].” JA 594-610. That document was withdrawn in
September 2019.

7a
2162, 2168 (2019) (citation omitted). It “stands in contrast to direct condemnation, in which the government
initiates proceedings to acquire title under its eminent
domain authority.” Id. The Trustee argues that, under
the U.S. and California Constitutions as well as § 105
of the Bankruptcy Code,4 the Trust is entitled to just
compensation for the taking of its property by the California Parties. While the Trustee’s claims are primarily against the Commission, he also sued the State “out
of an abundance of caution.” Trustee’s Br. at 40.
The California Parties filed motions to dismiss,
claiming, among other things, they as sovereigns are
immune from suits. The Bankruptcy Court denied
the motions. The District Court granted leave for
the California Parties to appeal only the Bankruptcy
Court’s ruling on their sovereign immunity defense
and did not allow interlocutory appeal of other issues.
It affirmed the Bankruptcy Court’s rejection of the California Parties’ assertion of Eleventh Amendment sovereign immunity and held that they forfeited their
argument on state law immunity from liability (often
called “substantive immunity”) when they failed to
raise the argument before the Bankruptcy Court. The
California Parties appeal to us, arguing they can assert
both Eleventh Amendment and substantive immunity
defenses.

4

11 U.S.C. § 105 is an “omnibus provision phrased in such
general terms as to be the basis for a broad exercise of power in
the administration of a bankruptcy case.” 2 Collier on Bankruptcy
¶ 105.01 (16th ed. 2021).

8a
II.

JURISDICTION AND STANDARD OF
REVIEW

The District Court had jurisdiction under 28
U.S.C. § 158(a)(3) over the appeal of the Bankruptcy
Court’s decision. For the appeal to our Court, the denial of a claim of sovereign immunity is “immediately
appealable under the collateral order doctrine [which
permits appeals of some non-final orders], imbuing us
with jurisdiction under 28 U.S.C. § 1291.” See Maliandi
v. Montclair State Univ., 845 F.3d 77, 82 (3d Cir. 2016);
see also P.R. Aqueduct & Sewer Auth. v. Metcalf &
Eddy, Inc., 506 U.S. 139, 141 (1993). We exercise plenary review of the Bankruptcy and District Courts’ legal determinations, see In re Goody’s Family Clothing
Inc., 610 F.3d 812, 816 (3d Cir. 2010), which includes
their denial of governmental immunity, see Maliandi,
845 F.3d at 82.
III. LEGAL BACKGROUND
This case reduces to one question: Under Katz, can
the California Parties assert a defense of sovereign immunity in the Adversary Proceeding? Given disagreement on the scope of proceedings covered by Katz, we
first summarize how the case law developed and then
distill the analytical framework.
A.

Case Law Before Katz

In our constitutional structure, states “maintain
certain attributes of sovereignty, including sovereign
immunity.” In re PennEast Pipeline Co., 938 F.3d 96,

9a
103 (3d Cir. 2019), cert. granted, PennEast Pipeline Co.
v. New Jersey, 141 S. Ct. 1289 (Mem.) (2021) (quoting
P.R. Aqueduct, 506 U.S. at 146). This includes, but is
not limited to, their immunity from suit in federal
court recognized by the Eleventh Amendment, which
reads in part that “[t]he Judicial power of the United
States shall not be construed to extend to any suit in
law or equity, commenced or prosecuted against one of
the United States by Citizens of another State.” U.S.
Const. amend. XI.5 This shelter from suit is a “fundamental aspect of the sovereignty which the [s]tates enjoyed before the ratification of the Constitution, and
which they retain today.” PennEast, 938 F.3d at 103
(quoting Alden v. Maine, 527 U.S. 706, 713 (1999)).
However, the sovereign immunity states enjoy is
not absolute. They can expressly consent to suit in federal court by voluntarily invoking the jurisdiction of
federal courts. See Lombardo v. Pennsylvania, Dep’t of
Pub. Welfare, 540 F.3d 190, 196 (3d Cir. 2008). Congress
can abrogate states’ immunity from suit by unequivocally expressing its intent to do so per valid constitutional authority. See Seminole Tribe of Fla. v. Florida,
517 U.S. 44, 55 (1996). Also, by ratifying the U.S. Constitution, states consented to certain waivers of their
sovereign immunity in the “plan of the convention,” including suits by the federal government against them
5

In Hans v. Louisiana, 134 U.S. 1, 10 (1890), the Supreme
Court decided that the Eleventh Amendment also covers suits by
in-state plaintiffs. Thus the Eleventh Amendment “bar[s] all private suits against non-consenting [s]tates in federal court.” Lombardo v. Pennsylvania, Dep’t of Pub. Welfare, 540 F.3d 190, 194
(3d Cir. 2008).

10a
in federal court. PennEast, 938 F.3d at 103-04 (quoting
Blatchford v. Native Vill. of Noatak, 501 U.S. 775, 779
(1991)).
Before Katz, courts faced with the assertion of sovereign immunity in bankruptcy proceedings focused
on the scope of congressional (that is, statutory) abrogation. See Seminole Tribe, 517 U.S. at 72 n.16 (“[I]t
has not been widely thought that the federal antitrust, bankruptcy, or copyright statutes abrogated the
[s]tates’ sovereign immunity.”); Hoffman v. Conn. Dep’t
of Income Maint., 492 U.S. 96, 104 (1989) (holding that
the Bankruptcy Code “did not abrogate the Eleventh
Amendment immunity of the [s]tates”); see also United
States v. Nordic Vill., Inc., 503 U.S. 30, 39 (1992) (holding that the Bankruptcy Code did not clearly abrogate
the federal government’s immunity from suits for monetary relief ). In these cases, the question was mainly
one of statutory interpretation—whether Congress unequivocally expressed its intent to end immunity. Seminole Tribe, 517 U.S. at 55; Hoffman, 492 U.S. at 104
(“[W]e need not address whether [Congress] had the
authority to [abrogate sovereign immunity] under its
[constitutional] bankruptcy power.”).
In 1994, Congress amended the Bankruptcy Code
in an attempt to overrule the decisions in Hoffman and
Nordic Village. See In re Sacred Heart Hosp., 133 F.3d
237, 242 n.8 (3d Cir. 1998). Some circuits, including our
own, concluded that although Congress now “unequivocally expressed its intent to abrogate the states’ Eleventh Amendment immunity under the Bankruptcy
Code,” the Constitution’s “Bankruptcy Clause [which

11a
authorizes Congress to enact “uniform Laws on the
subject of Bankruptcies throughout the United States”]
is not a valid source of abrogation power.” Id. at 243.
These holdings, while never explicitly overturned, were
soon displaced by subsequent Supreme Court case law.
In 2004, the Court set out to resolve a circuit split
on the validity of the Bankruptcy Code’s purported abrogation of sovereign immunity but ended up avoiding
the issue altogether. In Tennessee Student Assistance
Corp. v. Hood, 541 U.S. 440, 448 (2004), it rejected an
assertion of sovereign immunity involving the discharge of student debt guaranteed by an arm of the
State of Tennessee, concluding that when the “bankruptcy court’s jurisdiction over the res is unquestioned,
. . . the exercise of its in rem jurisdiction to discharge a
debt does not infringe state sovereignty.” Id. (internal
citation omitted).6 The Court did not address the Sixth
Circuit’s holding that the Bankruptcy Code validly
abrogated state sovereign immunity. See id. at 445
(“Because we hold that a bankruptcy court’s discharge
of a student loan debt does not implicate a [s]tate’s
Eleventh Amendment immunity, we do not reach
the broader question addressed by the Court of Appeals.”). To make the limited reach of its opinion clear,
the Court explained that its decision “is not to say[ ]
a bankruptcy court’s in rem jurisdiction overrides
6

In the bankruptcy context, the debtor’s estate is often referred to as the “res” to be administered by the bankruptcy court.
See, e.g., In re Phila. Ent. & Dev. Partners, L.P., 549 B.R. 103, 145
(Bankr. E.D. Pa. 2016); In re Metromedia Fiber Network, Inc., 299
B.R. 251, 273 (Bankr. S.D.N.Y. 2003) (“The debtor’s estate is a
res.”).

12a
sovereign immunity. . . . [n]or . . . that every exercise of
a bankruptcy court’s in rem jurisdiction will not offend
the sovereignty of the State.” Id. at 451 n.5 (internal
quotation marks and citation omitted).
B.

Katz

The Supreme Court expanded Hood’s narrow
holding two years later in Katz, which clarified federal
power over states in bankruptcy cases. There the liquidating supervisor of a bookstore that filed for Chapter
11 bankruptcy sought to recover preferential transfers7 made to Virginia educational institutions that
were arms of the Commonwealth otherwise entitled to
sovereign immunity. Katz, 546 U.S. at 360. The Court
sided with the supervisor and rejected the assertion of
sovereign immunity. We start with three non-controversial observations about Katz.
First, under the Constitution’s Bankruptcy Clause,
states are deemed to have waived their sovereign immunity in certain bankruptcy proceedings. Id. at 378
(“In ratifying the Bankruptcy Clause, the [s]tates acquiesced in a subordination of whatever sovereign
immunity they might otherwise have asserted in proceedings necessary to effectuate the in rem jurisdiction
of the bankruptcy courts.”). Thus we look to the scope
7

Preferential transfers are defined in 11 U.S.C. § 547(b).
They are basically payments made by the debtor to a creditor
within a short time before the bankruptcy filing that improve
(hence “prefer”) the creditor’s recovery from what it would otherwise receive in the bankruptcy.

13a
of constitutional waiver recognized by Katz instead
of congressional abrogation through the Bankruptcy
Code (though, as a theoretical matter, Congress could
still through legislation “exempt [states] from operation of [certain bankruptcy] laws,” id. at 379).
Second, Katz did not foreclose the sovereign immunity defense in all bankruptcy proceedings. See id.
at 378 n.15 (“We do not mean to suggest that every law
labeled a ‘bankruptcy’ law could, consistent with the
Bankruptcy Clause, properly impinge upon state sovereign immunity.”).8 Still, at least one later opinion
suggests a broader reading of Katz. In Allen v. Cooper,
140 S. Ct. 994, 1002 (2020), the Supreme Court held

8

At least one court has relied on this language to suggest
that Katz only applies to claims “created by the Bankruptcy
Code.” Shieldalloy Metallurgical Corp. v. N.J. Dep’t of Env’t Prot.,
743 F. Supp. 2d 429, 439 (D.N.J. 2010). We disagree because Katz
repeatedly referenced bankruptcy “proceedings.” See Katz, 546
U.S. at 362; see also Allen v. Cooper, 140 S. Ct. 994, 1002 (2020)
(“[W]e held that Article I’s Bankruptcy Clause enables Congress
to subject nonconsenting [s]tates to bankruptcy proceedings.” (emphasis added)); see also Ralph Brubaker, Explaining Katz’s New
Bankruptcy Exception to State Sovereign Immunity: The Bankruptcy Power as a Federal Forum Power, 15 Am. Bankr. Inst. L.
Rev. 95, 129 (2007) (suggesting Katz gave Congress the power to
“bind states to[ ] uniform federal judicial [bankruptcy] process”
(emphasis omitted)). In any event, focusing on claims “created” by
the Bankruptcy Code is an unworkable approach, considering the
Code often incorporates applicable state laws. See, e.g., 11 U.S.C.
§ 544(b)(1) (permitting the trustee to recover transfers that are
voidable under state laws); In re DBSI, Inc., 463 B.R. 709, 718
(Bankr. D. Del. 2012) (explaining that, when applying Katz, “[t]he
fact that various state laws are implicated is no ground for constitutional concern”).

14a
that the Constitution’s Intellectual Property Clause9
did not authorize Congress to abrogate states’ Eleventh Amendment immunity from copyright infringement suits. To distinguish that case from Katz, the
Court emphasized that the Bankruptcy Clause was
unique among Article I’s grant of authority, explaining
that “[i]n bankruptcy, we decided[ ] sovereign immunity has no place,” as “the Bankruptcy Clause embraced
the idea that federal courts could impose on state sovereignty.” Id. However, we do not think that dictum in
Allen means sovereign immunity can never be asserted before a bankruptcy court, for Katz was clear
that it was deemed waived in some but not all bankruptcy proceedings.
Finally, while Katz discussed the bankruptcy
court’s in rem jurisdiction as the historical underpinning for waiving state sovereign immunity, it does not
require a proceeding to be technically in rem. 546 U.S.
at 370. Indeed, although the preference action in Katz
was not squarely in rem, sovereign immunity still
could not be asserted where any court order issued in
the action would be “ancillary to and in furtherance of
the court’s in rem jurisdiction, [even if it] might itself
involve in personam process.” Id. at 372. The focus is
on function and not form, the benefit being that
courts do not need to struggle with the “blurred distinctions and perplexing case law [that confuse] in
9

Congress has the power “[t]o promote the Progress of Science and useful Arts, by securing for limited Times to Authors
and Inventors the exclusive Right to their respective Writings and
Discoveries.” U.S. Const. art. I, § 8, cl. 8.

15a
rem, ancillary to in rem, and even in personam proceedings in many respects.” In re DBSI, Inc., 463 B.R.
709, 714 (Bankr. D. Del. 2012).
We therefore summarize Katz’s holding as follows:
States cannot assert a defense of sovereign immunity
in proceedings that further10 a bankruptcy court’s in
rem jurisdiction no matter the technical classification
of that proceeding.
C.

Analytical Framework for Applying Katz

Katz did not define the range of proceedings that
further a bankruptcy court’s in rem jurisdiction, but it
did tell us bankruptcy’s three critical functions: “[1] the
exercise of exclusive jurisdiction over all of the debtor’s
property, [2] the equitable distribution of that property
among the debtor’s creditors, and [3] the ultimate discharge that gives the debtor a ‘fresh start’ by releasing
him, her, or it from further liability for old debts.” In re
Diaz, 647 F.3d 1073, 1084 (11th Cir. 2011) (quoting
Katz, 546 U.S. at 363-64). We agree with the Eleventh
Circuit and several bankruptcy courts that “[t]hese
guidelines provide a useful starting point.” Id.; see, e.g.,
In re Univ. of Wis. Oshkosh Found., Inc., 586 B.R. 458,
465 (Bankr. E.D. Wis. 2018); In re Odom, 571 B.R. 687,
10

At various places the Katz opinion described proceedings
where sovereign immunity is deemed waived as “merely ancillary
to,” “in furtherance of,” or “necessary to effectuate” the bankruptcy court’s in rem jurisdiction. 546 U.S. at 371-72, 378. We
think these are similar concepts and use “further” as a shorthand
to summarize Katz’s holding.

16a
695 (Bankr. E.D. Pa. 2017). Indeed, at oral argument
counsel for the Trustee and the Commission agreed
that the proper framework analyzes whether a proceeding furthers any of these three functions. Oral Arg.
Tr. 7:19-23, 24:4-9; accord Diaz, 647 F.3d at 1084.
Under this framework, courts must focus on function and not form when testing a proceeding’s connection to the bankruptcy court’s in rem jurisdiction. The
first function asks whether the proceeding decides and
affects interests in the res, the property of the debtor
and its estate. Unsurprisingly, courts in our Circuit
have already been asking this question when applying
Katz. See, e.g., In re La Paloma Generating Co., 588 B.R.
695, 730 (Bankr. D. Del. 2018) (Sontchi, J.) (“[A] bankruptcy court’s in rem jurisdiction would still need to focus[ ] on adjudications of interests in the underlying
res.”); In re Phila. Ent. & Dev. Partners, L.P., 549 B.R.
103, 123 (Bankr. E.D. Pa. 2016), aff ’d, 569 B.R. 394
(E.D. Pa. 2017), rev’d on other grounds, 879 F.3d 492
(3d Cir. 2018) (asking whether the claims “[i]mplicate
an [i]dentifiable [r]es”). Relying on the first function,
courts have found that states are deemed to waive
sovereign immunity in most (i) turnover actions,11 see
Philadelphia Entertainment, 549 B.R. at 123 (holding
“sovereign immunity [is] generally inapplicable to
turnover actions”); In re Kids World of America, Inc.,
349 B.R. 152, 165-66 (Bankr. W.D. Ky. 2006) (same),

11

Under 11 U.S.C. §§ 542 and 543, anyone in possession of
the debtor’s property may be required to return it—that is, turn
it over—to the debtor or its trustee.

17a
(ii) fraudulent transfer actions,12 see DBSI, 463 B.R. at
713-15 (explaining the clear parallels between preferences and fraudulent transfers), and (iii) contract disputes, see In re DPH Holdings Corp., 448 F. App’x 134,
138 (2d Cir. 2011) (unpublished) (“The contracts, which
include potential liabilities and responsibilities . . . ,
are part of [the debtor’s] estate.”).13
The second function captures proceedings where
the connection to a specific piece of property may be
lacking, but there is broader effect on the equitable distribution of the debtor’s property. A violation of the automatic stay, where one creditor seeks to enforce
remedies against the debtor’s property despite the
injunctive bar of the bankruptcy filing, is one such
example due to the disruptive effects on orderly administration of the estate. See Diaz, 647 F.3d at 1086
(“[W]e have no difficulty concluding that contempt motions alleging that a creditor has violated the automatic stay generally qualify as ‘proceedings necessary
12

Fraudulent transfers are defined in 11 U.S.C. § 548 and
involve transfers made (1) with the intent to defraud creditors
or (2) while the debtor was insolvent and for which the debtor
did not receive “reasonably equivalent value.” See 11 U.S.C.
§ 548(a)(1)(B)(i). 11 U.S.C. § 544(b)(1) also incorporates state
fraudulent transfer laws. The principal goal is to prevent the
debtor from “stiffing” creditors by giving away its property before
filing for bankruptcy.
13
To be clear, a sovereign immunity defense is not categorically foreclosed in those proceedings. See, e.g., Phila. Ent., 549
B.R. at 124 (explaining that a fraudulent transfer action relating
to revocation of a slot machine license does not further a bankruptcy court’s in rem jurisdiction because the license is not the
debtor’s property).

18a
to effectuate the in rem jurisdiction of the bankruptcy
courts.’ ” (emphasis in original) (quoting Katz, 546 U.S.
at 378)). Of course, there is also significant overlap between the first two functions. Id. at 1085-86 (explaining that the automatic stay implicates both functions).
The third function simply acknowledges the holding of Hood that “[s]tates, whether or not they choose
to participate in the [bankruptcy] proceeding, are
bound by a bankruptcy court’s discharge order no less
than other creditors.” See Hood, 541 U.S. at 448; see
also People v. Irving Trust Co., 288 U.S. 329, 333 (1933)
(holding that states must comply with deadlines to file
claims like other creditors because, “otherwise, orderly
and expeditious proceedings would be impossible and
a fundamental purpose of [bankruptcy] would be frustrated”).
Courts thus analyze correctly if they ask whether
a proceeding directly relates to one or more of these
three functions. See Diaz, 647 F.3d at 1084 (“At a minimum, then, a proceeding must directly relate to one or
more of these functions.”). We do not offer a one-sizefits-all test because claims and proceedings in bankruptcy are varied and fact-specific.
IV. APPLICATION
With the framework for analysis set, we apply it
here and conclude the California Parties cannot assert
sovereign immunity in the Adversary Proceeding.

19a
A.

The Adversary Proceeding Furthers Two of Bankruptcy’s Critical
Functions.

At the outset, the Adversary Proceeding furthers
the Bankruptcy Court’s exercise of jurisdiction over
property of the Debtors and their estates, as it seeks a
ruling on rights in the Onshore Facility. The California
Parties repeatedly emphasize that the inverse condemnation claim is primarily one for money damages. But
that alone is irrelevant, for even if the action “may resemble money damage lawsuits in form, it is their
function that is critical.” Diaz, 647 F.3d at 1085 (internal quotations and citation omitted) (emphases in original). And while the Adversary Proceeding may not be
clearly in rem in form, its function is to decide rights
in Venoco’s property. See United States v. Sid-Mars
Rest. & Lounge, Inc., 644 F.3d 270, 286 (5th Cir. 2011)
(Dennis, J., dissenting) (“Although I have not found
cases explicitly declaring that inverse condemnation
suits are in rem proceedings, . . . they are substantially
equivalent to condemnation actions and essential to
the self-executing constitutional protection of private
property owners from governmental takings without
just compensation.”). At its core, the Adversary Proceeding is about whether the California Parties can
use Venoco’s property for free. See JA 129, Complaint
¶ 37 (“Plaintiff is entitled to just compensation, including the fair market and fair rental value of the [Onshore Facility].”); R & J Holding Co. v. Redevelopment
Auth., 670 F.3d 420, 433 n.10 (3d Cir. 2011) (explaining
that seeking “compensation for . . . inability to fully

20a
utilize, develop, and sell their property. . . . are rights
inhering in the property itself ” (emphasis added)).
The Adversary Proceeding also furthers the second critical function—facilitating equitable distribution of the estate’s assets. The Onshore Facility is a
significant asset for Venoco and its creditors. Indeed,
the Plan’s liquidation analysis acknowledged the Commission was “receiving significant value from the use
of the Debtors’ assets” and that the “value of the use of
those assets [was] being negotiated between the parties.” JA 589. Further, the Commission is a major creditor and filed a proof of claim against Venoco, so the
California Parties have a stake in how the Trust’s assets are liquidated and distributed. And consider the
consequences: If the California Parties could assert
sovereign immunity in the Adversary Proceeding, they
would have a win-win—able to recover from the Trust
on account of their claims against Venoco while preventing any judicial scrutiny over whether they can
use the Onshore Facility without payment. And they
would improve their status vis-à-vis other creditors
solely owing to their status as a state that can invoke
sovereign immunity, just the kind of result Katz
wanted to avoid. See DBSI, 463 B.R. at 713 (“[The aim
of equitable distribution of the res], and the desire for
uniform application of the bankruptcy laws, would be
jeopardized if the states were able to draw resources
from the res or retain estate property when other creditors were unable to do so.” (citing Katz, 546 U.S. at
362-64)).

21a
The California Parties urge that sovereign immunity is fundamental to our constitutional design
and the exercise of eminent domain power is especially
central to their sovereignty. Though true as a general
matter, bankruptcy is a different ball game, and the
effect on state sovereignty is not the focus of our
analysis. The focus is instead on ensuring that sovereign immunity will not interfere with the bankruptcy
court’s jurisdiction over the estate’s property as well as
its orderly administration. The driving principle of the
Katz decision is that the Bankruptcy Clause has a
“unique history” and is “sui generis . . . among Article
I’s grants of authority,” the result being “that federal
courts could impose on state sovereignty” in bankruptcy proceedings. Allen, 140 S. Ct. at 1002 (internal
citations omitted).
We are also unpersuaded that we must consider
that the Adversary Proceeding is a type of action both
“anomalous and unheard of when the Constitution was
adopted.” Fed. Maritime Comm’n v. S.C. State Ports
Auth., 535 U.S. 743, 755 (2002) (internal quotation and
citation omitted). This simply asks for a duplicative
and unnecessary historical analysis. Katz explained
that the “Framers would have understood that laws ‘on
the subject of Bankruptcies’ included laws providing,
in certain limited respects, for more than simple adjudications of rights in the res. . . . More generally, courts
adjudicating disputes concerning bankrupts’ estates
historically have had the power to issue ancillary orders enforcing their in rem adjudications.” 546 U.S. at
370. Thus we do not need to analyze whether the exact

22a
proceeding existed at the Founding, for Katz already
concluded that drawing the line at whether a proceeding furthers the bankruptcy court’s in rem jurisdiction
is consistent with the historical understanding of the
scope of sovereign immunity waiver. Id.; cf. Hood, 541
U.S. at 452-53.
B.

The Deemed Waiver of Sovereign
Immunity in Katz Can Apply to
Post-Confirmation or Post-Effective
Date Claims.

The California Parties also argue that the Adversary Proceeding relates only to claims after the Plan
was confirmed and became effective,14 when the Debtors’ estate ceased to exist, so there is no res for the
bankruptcy court’s jurisdiction to attach. The Trustee
disputes this premise, explaining that, due to the
14

The parties often use the terms “confirmation date” and
“effective date” interchangeably, but there is a meaningful difference. Typically “the debtor’s estate ceases to exist once confirmation [of a plan] has occurred.” In re Resorts Int’l, Inc., 372
F.3d 154, 165 (3d Cir. 2004) (citation omitted); see also 11 U.S.C.
§ 1141(b) (“Except as otherwise provided in the plan or the order
confirming the plan, the confirmation of a plan vests all of the
property of the estate in the debtor.”). However, that is not the
case here where the order confirming the Plan provided that
Venoco’s assets were vested in the Trust as of the Plan’s effective
date, not the confirmation date. See JA 459. While the effective
date typically occurs shortly after confirmation, there was a
nearly five-month delay here between confirmation in May 2018
and the Plan going effective in October 2018. Thus the relevant
date for the California Parties’ argument is the effective date, not
the confirmation date, though this distinction does not affect the
result we reach.

23a
nature of the Gap Agreement, the Adversary Proceeding also seeks to recover amounts owed for the
improper taking of the Onshore Facility before the effective date. We do not need to decide whether the Adversary Proceeding only pertains to post-effective date
claims, as we reject the California Parties’ argument
even if it were true.
The California Parties essentially ask us to read
Katz narrowly to carve out all claims that occurred after Venoco’s estate was vested in the Trust. We decline
to do so. In In re Resorts International, Inc., 372 F.3d
154, 166 (3d Cir. 2004), we held that a bankruptcy
court could have jurisdiction over a proceeding even
when the “estate” no longer technically exists, so long
as the proceeding has a “close nexus to the bankruptcy
plan or proceeding.” To refresh, the issue of bankruptcy
statutory jurisdiction is not before us because the District Court did not grant leave to the California Parties
to appeal it. Still, the reasoning of Resorts International is of aid. There, we followed our precedent in
Pacor, Inc. v. Higgins, 743 F.2d 984, 994 (3d Cir. 1984),
which held bankruptcy courts have statutory jurisdiction over a proceeding “related to” bankruptcy if the
outcome could affect “the estate being administered in
bankruptcy.” In that context, we refused to apply the
“ ‘effect on the bankruptcy estate’ test so literally as to
entirely bar post-confirmation bankruptcy jurisdiction.” Resorts Int’l, 372 F.3d at 165.
Here, the Bankruptcy Court’s critical in rem functions did not end when the Plan became effective, as
the Trust exists primarily to facilitate the “equitable

24a
distribution of [the debtor’s property] among the
debtor’s creditors.” Katz, 546 U.S. at 364. Indeed, the
Bankruptcy Court retained substantial control over
the Trust assets, which were in essence a continuation
of the estate.15 As the Plan was one of liquidation, there
was no reorganized debtor that continued to do business, the Debtors did not receive a discharge, see 11
U.S.C. § 1141(d)(3), and the Bankruptcy Court continued to oversee the Trust’s administration and distribution of the estate’s assets under the Plan, see 11
U.S.C. § 1142(b). See also In re Boston Reg’l Med. Ctr.,
Inc., 410 F.3d 100, 107 (1st Cir. 2005) (“[A] liquidating
15

The Confirmation Order states that the Trustee “has been
fully disclosed in the” Trust Agreement in compliance with Bankruptcy Code § 1129(a)(5), which requires debtors to “disclose[ ] the
identity and affiliations of any individual proposed to serve, after
confirmation of the plan, as . . . a successor to the debtor under
the plan.” JA 448; see 11 U.S.C. § 1129(a)(5). The Trust Agreement further appointed Davis “as a representative of the Contributing Debtors’ Estates pursuant to sections 1123(a)(5), (a)(7), and
(b)(3)(B),” JA 302, and authorized him to “[a]llow, settle, object to
or reconcile any Claims against the Contributing Debtors’ Estates.” JA 305. The Confirmation Order provides that the Court
retained jurisdiction over, inter alia, actions “[t]o recover all assets of the Debtors and property of the Debtors’ Estates, which
shall be for the benefit of the Liquidating Trust, wherever located.” JA 473. Moreover, the Trust Agreement provides that the
Bankruptcy Court has jurisdiction over the Trust and Trustee, JA
316; requires court approval before selling or abandoning trust
assets, JA 305; and states that “[a]ll funds in the Liquidating
Trust shall be deemed in custodia legis [in the custody of the law]
until” they are paid out, “and no Beneficiary . . . can bind, pledge,
encumber, execute upon, garnish, or attach the Liquidating Trust
Assets or the Liquidating Trustee in any manner or compel payment from the Liquidating Trustee except by order of the Bankruptcy Court,” JA 317.

25a
debtor exists for the singular purpose of executing an
order of the bankruptcy court.”).
Our holding is limited, and we do not try to define
the entire scope of the Bankruptcy Court’s in rem jurisdiction, which the Katz Court described as “premised on the debtor and his estate.” 546 U.S. at 370
(quoting Hood, 541 U.S. at 447). We only hold that, in
this case, the Bankruptcy Court’s in rem jurisdiction
extends to the estate’s property transferred to the
Trust for the purpose of liquidation and distribution to
Venoco’s creditors, and over which the Bankruptcy
Court retained substantial control under the Plan.
And, contrary to the California Parties’ parade of horribles, our conclusion does not mean sovereign immunity is waived in every bankruptcy proceeding brought
by a post-confirmation trustee. A court must still undertake the proper analysis under Katz, and it must
also have statutory jurisdiction over the proceeding
under Resorts International.
C.

The California Parties Cannot Assert
Eleventh Amendment Immunity or
State-Law Substantive Immunity
from Liability.

As the Adversary Proceeding is the type of bankruptcy proceeding where states are deemed to waive
their sovereign immunity, does that waiver extend to
both defenses raised by the California Parties? To refresh, they assert Eleventh Amendment immunity
and state-law substantive immunity from liability. In

26a
Lombardo, 540 F.3d at 199, we explained the difference
between these two defenses. The first bars all private
suits against non-consenting states in the federal
courts. See U.S. Const. amend. XI; Seminole Tribe, 517
U.S. at 72-73; Hans v. Louisiana, 134 U.S. 1, 10 (1890).
Second, seeing that the Eleventh Amendment does
not define the entire scope of sovereign immunity,
states may also have substantive immunity from liability defined under their own law. See Lombardo, 540
F.3d at 195. As the District Court aptly summarized,
“[t]he question raised by substantive immunity from
liability is whether the state has agreed to subject
itself to liability. The question raised by Eleventh
Amendment immunity is whether the state has consented to be sued in a federal court.” In re Venoco, LLC,
610 B.R. 239, 247 (D. Del. 2020). The parties here do
not dispute that Katz reaches a state’s assertion of
Eleventh Amendment immunity, so the California Parties’ defense of Eleventh Amendment immunity fails.
As explained below, we also reject their assertion of
state-law substantive immunity from liability.
At the outset, we agree with the District Court
that the California Parties forfeited the argument they
have immunity from liability when they failed to raise
it in the Bankruptcy Court. See In re Kaiser Grp. Int’l
Inc., 399 F.3d 558, 565 (3d Cir. 2005) (noting the “general rule that when a party fails to raise an issue in the
bankruptcy court, the issue . . . may not be considered
by the district court on appeal”). The California Parties
argue that the immunity-from-liability defense is jurisdictional and therefore can be raised at any time. We

27a
reject this view, as “[a] defense rooted in state law cannot define the jurisdiction of the federal courts, which
derives from the Constitution and acts of Congress.”
Green v. Graham, 906 F.3d 955, 964 (11th Cir. 2018).
The California Parties’ reliance on Edelman v. Jordan,
415 U.S. 651, 678 (1974), is also misplaced, for that case
only discussed Eleventh Amendment immunity, which
“sufficiently partakes of the nature of a jurisdictional
bar so that it need not be raised in the trial court.” Id.
And the Supreme Court never even decided “that Eleventh Amendment immunity is a matter of subject-matter jurisdiction,” see Wis. Dep’t of Corrs. v. Schacht, 524
U.S. 381, 391 (1998), and certainly never suggested
that the immunity-from-liability defense could be jurisdictional.
Had we reached the merits, the California Parties
would still not have prevailed, for it is well settled they
can be sued in California courts for the alleged violation of the Takings Clause under the U.S. or California
Constitutions; so they are not actually immune from
liability under California law. See U.S. Const. amend.
V (“[P]rivate property [shall not] be taken for public
use, without just compensation.”); Cal. Const. art. 1,
§ 19 (“Private property may be taken or damaged for a
public use and only when just compensation, ascertained by a jury unless waived, has first been paid to,
or into court for, the owner.”). The Supreme Court recognizes that the Takings Clause of the Fifth Amendment is “self-executing” without statutory recognition,
so “states [must] provide a specific remedy for takings in their own courts.” See Seven Up Pete Venture v.
Schweitzer, 523 F.3d 948, 954 (9th Cir. 2008) (citing

28a
First Eng. Evangelical Lutheran Church v. County of
Los Angeles, 482 U.S. 304, 315 (1987)). Similarly, the
California Constitution’s takings provision is also selfexecuting without the need for more state legislation,
meaning the State already indicated its consent to be
sued when adequate payment to an owner did not follow a taking. See Rose v. State, 123 P.2d 505, 513 (Cal.
1942) (“[I]f no statute exists, liability still exists.”).
Indeed, the California Parties as much as conceded they are not categorically immune from liability
under California law and argue only that any suit
against the State alleging an unconstitutional taking
must be litigated in its own courts. Comm’n’s Op. Br. at
53 n.21. But this is an argument about the forum for
suit and not liability. To the extent they are invoking
a third defense—a state law immunity-from-suit defense—we and other circuits have not recognized it. See
Lombardo, 540 F.3d at 194; see also Meyers ex rel. Benzing v. Texas, 410 F.3d 236, 250-55 (5th Cir. 2005). Further, allowing the California Parties to assert a state
law immunity-from-suit defense separate from Eleventh Amendment immunity would make the decision in
Katz a dead letter. If that argument prevails, state legislation can easily end-run the deemed waiver of state
sovereign immunity effected by the Bankruptcy Clause
and recognized in Katz. Tellingly, Katz never limited its
reach to only Eleventh Amendment immunity. 546 U.S.
at 378 (“In ratifying the Bankruptcy Clause, the [s]tates
acquiesced in a subordination of whatever sovereign immunity they might overwise have asserted.” (emphasis
added)); id. at 377 (“States agreed . . . not to assert any

29a
sovereign immunity defense they might have had.” (emphasis added)).16
Thus the California Parties’ assertion of substantive immunity from liability under state law also fails.
Because we reject the asserted sovereign immunity defenses, we do not reach whether the Commission also
waived its sovereign immunity defenses by filing a
proof of claim in the Bankruptcy Court and whether
that waiver can be attributed to the State.
*

*

*

*

*

State sovereign immunity is a critical feature of
the U.S. Constitution, but it is not absolute. When they
ratified the Constitution, states waived their sovereign
immunity defense in bankruptcy proceedings that further a bankruptcy court’s exercise of its in rem jurisdiction. We have such a proceeding here, which seeks a
ruling on rights in the Debtors’ property and will affect
the distribution of assets to the Debtors’ creditors. We
affirm the District Court’s affirmance of the Bankruptcy Court’s ruling and reject the California Parties’
assertion of sovereign immunity in the Adversary Proceeding.
16
We do not go as far as holding that the substantiveimmunity-from-liability defense is deemed waived in every
proceeding where sovereign immunity is rejected under Katz.
We hold off because the California Parties do not have immunity
from liability here, and there may be potential daylight between
the two defenses when applying Katz to a state-law cause of action. See Brubaker, supra, at 132 (describing potential complications with applying Katz to state-law causes of action).

30a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IN RE VENOCO, LLC, et al., : Chapter 11
: Bankr. No. 17-10828-JTD
Debtors.
: (Jointly Administered)
STATE OF CALIFORNIA, : Civ. No. 19-mc-07-CFC
:
Appellant,
:
v.
:
EUGENE DAVIS, in his :
capacity as Liquidating
:
Trustee of the Venoco
:
Liquidating Trust,
:
:
Appellee.
CALIFORNIA STATE
LANDS COMMISSION,
Appellant,
v.
EUGENE DAVIS, in his
capacity as Liquidating
Trustee of the Venoco
Liquidating Trust,
Appellee.

: Civ. No. 19-mc-11-CFC
:
:
:
:
:
:
:
:
:
:

31a
MEMORANDUM OPINION
January 3, 2020
Wilmington, Delaware
/s/ Colm F. Connolly
CONNOLLY, UNITED
STATES DISTRICT JUDGE

The Liquidating Trustee of the Venoco Liquidating
Trust filed this post-confirmation adversary proceeding in the Bankruptcy Court against the State of California and the California State Lands Commission
(collectively, “the State Defendants”). The two-count
Complaint alleges “inverse condemnation” claims under the Takings Clauses of the United States and California Constitutions (Count I) and § 105(a) of the
Bankruptcy Code, 11 U.S.C. § 105(a) (Count II). Adv.
D.I. 1 ¶¶ 35-41.1 Inverse condemnation is “a cause of
action against a governmental defendant to recover
the value of property which has been taken in fact by
the governmental defendant.” United States v. Clarke,
445 U.S. 253, 257, 100 S. Ct. 1127, 63 L.Ed.2d 373
(1980) (quoting D. Hagman, Urban Planning and Land
Development Control Law 328 (1971)). It “stands in
1

The docket of the Chapter 11 cases, captioned In re Venoco,
LLC, No. 17-10828-JTD, is cited herein as “B.D.I. ___.” The docket
of the adversary proceeding, captioned Davis v. State of California, Adv. No. 18-50908-JTD, is cited herein as “Adv. D.I. ___.” The
Appendix to Trustee’s Memorandum of Law Opposing Each Appellant’s Appeal Regarding Sovereign Immunity (19-mc-07-CFC
D.I. 35) is cited herein as “B ___.”

32a
contrast to direct condemnation, in which the government initiates proceedings to acquire title under its
eminent domain authority.” Knick v. Township of Scott,
Pennsylvania, 139 S. Ct. 2162, 2168 (2019).
The State Defendants moved to dismiss the Complaint pursuant to Federal Rule of Civil Procedure
12(b)(6) and Federal Rule of Bankruptcy Procedure
7012(b). Adv. D.I. 8; Adv. D.I. 12. In support of their motions, they argued, among other things, that the claims
were barred by the State Defendants’ sovereign immunity. The Bankruptcy Court denied their motions to
dismiss. In re Venoco, LLC, 596 B.R. 480 (Bankr. D. Del.
2019).
The sole issue in this appeal is whether the Bankruptcy Court erred in rejecting the State Defendants’
sovereign immunity arguments. By separate Memorandum Order, I denied the State Defendants’ requests
for leave to appeal on an interlocutory basis the other
rulings made by the Bankruptcy Court in denying the
motions to dismiss. Civ. No. 19-463-CFC, D.I. 37.
I have jurisdiction over this appeal pursuant to 28
U.S.C. § 158(a)(3) and Puerto Rico Aqueduct and Sewer
Authority v. Metcalf & Eddy, Inc, 506 U.S. 139, 143-44
(1993) (holding that Eleventh Amendment sovereign
immunity is an immunity from suit, the denial of
which is appealable as a collateral order). As I am assessing the merits of a Rule 12(b)(6) motion to dismiss,
I accept as true all factual allegations in the Complaint
and view those facts in the light most favorable to the
Liquidating Trustee. See Umland v. Planco Fin. Servs.,

33a
542 F.3d 59, 64 (3d Cir. 2008). I have considered in addition to the Complaint only “document[s] integral to
or explicitly relied upon” in the Complaint, Schmidt v.
Skolas, 770 F.3d 241, 249 (3d Cir. 2014) (internal quotation marks omitted); any “undisputedly authentic
document” attached as an exhibit to the motions to dismiss if the Trustee’s claims are based on the document,
Pension Ben. Guar. Corp. v. White Consol. Indus., Inc.,
998 F.2d 1192, 1196 (3d Cir. 1993); and “any matters
incorporated by reference or integral to the claim[s],
items subject to judicial notice, [and] matters of public
record,” Buck v. Hampton Twp. Sch. Dist., 452 F.3d 256,
260 (3d Cir. 2006). I have ignored the substantial portions of both sides’ briefing in which facts not set forth
in documents meeting these criteria are recited and
argued. See In re Burlington Coat Factory Sec. Litig.,
114 F.3d 1410, 1426 (3d Cir. 1997) (A district court
“may not consider matters extraneous to the pleadings” when ruling on a motion to dismiss.).
I.

BACKGROUND

Venoco was the principal debtor in the Chapter 11
case from which this adversary proceeding arose. The
other debtors were affiliates of Venoco. As the parties
do not distinguish Venoco from the other debtors either
individually or collectively, I will refer to the debtors
collectively as Venoco.
Venoco was an oil and gas company that operated
the Platform Holly drilling rig in the South Ellwood Oil
Field off the coast of Santa Barbara, California. It held

34a
rights, title, and interests to wells in the South Ellwood
Field by virtue of certain leases (the SEF leases) it obtained from Mobil Oil Company in 1997. The SEF
leases were issued by the State of California, acting by
and through the Lands Commission.
Venoco processed the oil and gas it obtained from
Platform Holly at the Ellwood Onshore Facility (the
EOF), which sits on a half-acre lot on the California
coast about three miles north of the platform. Venoco
held title to the EOF and the air permits necessary to
use the EOF.
Venoco’s economic demise can be traced to 2015,
when a ruptured pipeline cut off the only conduit for
the Platform Holly’s oil to get to market. Adv. D.I. 1
¶ 26. The pipeline rupture and subsequent refusal of
the Land Commission to allow Venoco to pursue alternative means to extract and process oil from the South
Ellwood Field led to Venoco’s filing for bankruptcy on
April 17, 2017. Id. That same day, Venoco quitclaimed
its SEF leases, thereby relinquishing its rights, title,
and interests in the South Ellwood Field, including its
ownership of the Platform Holly. Id. ¶ 2. As a result of
that relinquishment, the Land Commission became responsible for decommissioning the Platform Holly and
plugging the abandoned wells in the South Ellwood
Field. Id.
The decommissioning of an oil platform and the
plugging of offshore wells are expensive undertakings
fraught with safety and environmental hazards. To facilitate an orderly and safe transition of the South

35a
Ellwood decommissioning and plugging operations to
a third-party contractor designated by the Land Commission, Venoco and the Land Commission entered
into an Agreement for Reimbursement of Temporary
Services on the eve of Venoco’s bankruptcy. Adv. D.I. 11. The reimbursement agreement provided in relevant
part that the EOF was “necessary for the continued operation and anticipated plugging and abandonment” of
the SEF leases and that the Land Commission would
pay Venoco approximately $1.1 million a month to operate the Platform Holly, South Ellwood wells, and
EOF in a safe and responsible manner until the new
contractor designated by the Land Commission was
ready to assume operational control.
On September 15, 2017, the third-party contractor
took over the decommissioning and plugging operations, and the reimbursement agreement was terminated. Adv. D.I. 1 ¶ 28. At that point, Venoco and the
Land Commission entered into a “Gap Agreement”
pursuant to which the Land Commission agreed to pay
Venoco $100,000 per month for the non-exclusive access and use of the EOF. Id. ¶ 29.
Under the terms of the SEF leases and California
law, the Land Commission has the right to obtain reimbursement for its decommissioning and plugging
efforts from Venoco and from Venoco’s predecessor
lessees, including Mobil Oil (and Mobil’s successorin-interest, Exxon Mobil). Accordingly, on October 13,
2017, the Land Commission filed a proof of claim with
the Bankruptcy Court for an estimated $130 million
contingent claim against Venoco for the recovery of

36a
amounts the Land Commission will have incurred in
plugging the South Ellwood wells and decommissioning the Platform Holly and other facilities used to extract and process oil and gas from the wells during the
plugging process. B001682. The contingent claim included $29 million to $35 million for the cost to operate
and maintain the EOF in connection with the plugging
and decommissioning efforts. B001751.
On May 23, 2018, the Bankruptcy Court entered
an order confirming Debtor’s Plan of Liquidation, effective as of October 1, 2018. As part of the Plan and the
Litigation Trust Agreement it incorporates, the Court
created a Liquidating Trust and transferred to that
Trust assets (the Liquidating Trust Assets) from the
bankruptcy estate. Those assets include the EOF and
any claims Venoco had against the State Defendants.
The Bankruptcy Court appointed Plaintiff to serve
as the Liquidating Trustee and ordered him to “collect[ ], hold[ ], distribut[e] and liquidat[e] the Liquidating Trust Assets for the benefit” of Venoco’s creditors
that filed claims against the bankruptcy estate and “to
otherwise administer[ ] the wind-down” of the estate.
B.D.I. 879-1, Liquidating Trust Agreement at 2; B.D.I.
893, Notice of Appointment of Liquidating Trustee;
B.D.I. 922-1, Combined Disclosure Statement and
Plan, Art. XI.C. (governing “Rights, Powers and Duties
of the Debtors and Liquidating Trustee”); id., Art.
XIII.D (governing “Payments and Distributions for
Disputed Claims”); B.D.I. 922, Confirmation Order
¶¶ 10-11).

37a
In the months leading up to confirmation, Venoco
“sought to negotiate with the [Land Commission] for a
purchase price and ultimate disposition of the EOF, its
equipment, and [environmental] permits.” Adv. D.I. 1
¶ 30. The Land Commission, however, refused to purchase these assets and also refused to pay Venoco the
amounts it owed Venoco under the Gap Agreement. Id.
On August 22, 2018, Venoco notified the Land Commission that it intended to terminate the Gap Agreement
on October 15, 2018 if certain conditions, including the
payment of $950,000 in past due payments under the
Gap Agreement and “substantial progress towards settlement” of the parties’ outstanding claims against
each other were not met. Id. ¶ 31.
On October 1, 2018, the Plan became effective and
the EOF, its permits, and Venoco’s potential claims
against the State Defendants were transferred to the
Liquidating Trust. On October 15, 2018, the Gap
Agreement was terminated.
The State Defendants have informed the Liquidating Trustee that they will not compensate the Liquidating Trust for their use of the EOF but will “remain
on the EOF under the veil of police powers authorizing
them to take actions necessary to protect the environment.” Id. ¶ 1. The State Defendants intend to use the
EOF over the next five years to process and sell for tens
of millions of dollars the oil and gas obtained during
their decommissioning and plugging efforts. Id. ¶¶ 33,
34.

38a
On October 16, 2018, the Liquidating Trustee filed
the Complaint and thereby initiated this adversary
proceeding. The Liquidating Trustee alleges in the
Complaint that the State Defendants’ continued use of
the EOF constitutes a taking under the United States
and California Constitutions and that the Liquidating
Trust is therefore entitled to “just compensation, including the fair market and fair rental value of the
EOF, its equipment, its permits and [the State] Defendants’ special use and operations thereon.” Id. ¶ 37.
By its Complaint, the Liquidating Trustee seeks “to
maximize [the] distributable value” of the Liquidating
Trust “in accordance with” the Plan. Id. ¶ 41.
The State Defendants filed motions to dismiss to
the Complaint. The Bankruptcy Court denied the motions. The Court based its decision in relevant part on
its conclusion that “the in rem jurisdiction of the bankruptcy court defeats a claim of sovereign immunity.”
Venoco, 596 B.R. at 487.
II.

DISCUSSION

The State Defendants make two arguments on appeal. First, they argue that they are immune from suit
in federal court under the Eleventh Amendment of the
United States Constitution. 19-mc-07-CFC, D.I. 32
at 13. The Amendment literally reads: “The Judicial
power of the United States shall not be construed to
extend to any suit in law or equity, commenced or prosecuted against one of the United States by Citizens of
another State, or by Citizens or Subjects of any Foreign

39a
State”; but the Supreme Court has extended the
Amendment’s reach to cover suits by in-state plaintiffs,
Hans v. Louisiana, 134 U.S. 1, 14-15, 20 (1890), and
thus the Amendment bars all private suits against
non-consenting States in the federal courts.
Second, the State Defendants contend that they
enjoy “substantive immunity” under the California
Tort Claims Act that extends “beyond” their Eleventh
Amendment immunity.
A. Standard of Review
A district court “review[s] [a] bankruptcy court’s
legal determinations de novo, its factual findings for
clear error and its exercise of discretion for abuse
thereof.” In re Trans World Airlines, Inc., 145 F.3d 124,
130-31 (3d Cir. 1998) (citation omitted). The district
court “review[s] de novo whether an entity is entitled
to sovereign immunity.” Patterson v. Pa. Liquor Control
Bd., 915 F.3d 945, 950 (3d Cir. 2019) (citation omitted).
B. Eleventh Amendment Immunity
The State Defendants’ argument that they are entitled to Eleventh Amendment immunity is foreclosed
by the Supreme Court’s decision in Central Virginia
Community College v. Katz, 546 U.S. 356 (2006). The
Court held in Katz that “[i]n ratifying the Bankruptcy
Clause [of the Constitution], the States acquiesced
in a subordination of whatever sovereign immunity
they might otherwise have asserted in proceedings

40a
necessary to effectuate the in rem jurisdiction of the
bankruptcy courts.” Id. at 378. See also id. at 373 (“Insofar as orders ancillary to the bankruptcy courts’ in
rem jurisdiction, like orders directing turnover of preferential transfers, implicate States’ sovereign immunity from suit, the States agreed in the plan of the
[Constitutional] Convention not to assert that immunity.”); id. at 377 (“[The] States agreed in [ratifying] the
plan of the [Constitutional] Convention not to assert
any sovereign immunity defense they might have had
in proceedings brought pursuant to Laws on the subject of Bankruptcies.” (internal quotation marks and
citation omitted)). As the four dissenters noted in Katz,
the Court’s majority “f[oun]d[ ] a surrender of the
States’ immunity from suit in Article I of the Constitution, which authorizes Congress ‘[t]o establish . . .
uniform Laws on the subject of Bankruptcies throughout the United States[,]’ ” id. at 381 (quoting U.S.
Const. Art. I § 8, cl. 4), and thus the majority’s opinion
“ma[d]e[ ] clear that no action of Congress is needed [to
abrogate the States’ sovereign immunity in bankruptcy proceedings] because the Bankruptcy Clause itself manifests the consent of the States to be sued[,]”
id. at 383 (emphasis in original).
In this case, the Litigation Trustee’s inverse condemnation claims effectuate the Bankruptcy Court’s in
rem jurisdiction. The Trustee brought the claims to fulfill his obligations under the Court-ordered Plan to collect and liquidate the Trust’s assets for the benefit of
Venoco’s creditors and to administer the wind-down
of the bankruptcy estate. B.D.I. 879-1 at 2. Thus, the

41a
claims affect directly the administration and distribution of the res—the core of the Bankruptcy Court’s in
rem jurisdiction.
The State Defendants argue that “[a]lthough a
State’s sovereign immunity may be abrogated by Congress in narrow circumstances, . . . the Third Circuit
has held that the purported abrogation of state sovereign immunity contained in 11 U.S.C. § 106(a) was beyond Congress’s power under the Bankruptcy Clause.”
19-mc-07-CFC D.I. 32 at 14 (citing Sacred Hart Hosp.
v. Dep’t of Pub. Welfare, 133 F.3d 237, 245 (3d Cir.
1998)). But this argument misses the point. It is true
that the Third Circuit held in Sacred Heart—eight
years before Katz—that Congress’s attempt to abrogate States’ sovereign immunity pursuant to § 106(a)
was unconstitutional. Id.2 But Katz made the question
of Congressional abrogation irrelevant. The Court was
explicit in Katz that the States waived their sovereign
immunity by ratifying the Bankruptcy Clause in the
Constitution. Thus, as the dissent in Katz noted, “no
action of Congress is needed” to abrogate the States’
sovereign immunity in bankruptcy proceedings. Katz,
546 U.S. at 383 (emphasis in original).
The State Defendants next argue that inverse condemnation claims are “for dollars, not particular dollars,” and thus such claims are not in rem and not
subject to Katz. 19-mc-07-CFC D.I. 32 at 17-18. But
2

Section 106(a) provides that “[n]otwithstanding an assertion of sovereign immunity, sovereign immunity is abrogated as
to a governmental unit to the extent set forth in this section with
respect to” certain sections of the Bankruptcy Code.

42a
whether the inverse condemnation claims themselves
are in rem is of no moment. The relevant question is
whether the claims are asserted in proceedings that
are ancillary to or give effect to the bankruptcy court’s
in rem jurisdiction. See Katz, 546 U.S. at 373 (“Insofar
as orders ancillary to the bankruptcy courts’ in rem jurisdiction . . . implicate States’ sovereign immunity
from suit, the States agreed in the plan of the [Constitutional] Convention not to assert that immunity.”). As
the Court explained in Katz:
The ineluctable conclusion[] . . . is that [the]
States agreed in the [ratification of the] plan of
the [Constitutional] Convention not to assert
any sovereign immunity defense they might
have had in proceedings brought pursuant to
“Laws on the subject of Bankruptcies.” The
scope of this consent was limited; the jurisdiction exercised in bankruptcy proceedings
was chief ly in rem—a narrow jurisdiction
that does not implicate state sovereignty to
nearly the same degree as other kinds of jurisdiction. But while the principal focus of the
bankruptcy proceedings is and was always
the res, some exercises of bankruptcy courts’
powers—issuance of writs of habeas corpus
included—unquestionably involved more than
mere adjudication of rights in a res. In ratifying
the Bankruptcy Clause, the States acquiesced
in a subordination of whatever sovereign immunity they might otherwise have asserted in
proceedings necessary to effectuate the in rem
jurisdiction of the bankruptcy courts.
546 U.S. at 377-78 (citations omitted).

43a
Lastly, quoting In re Resorts International, Inc.,
372 F.3d 154,165 (3d Cir. 2004), the State Defendants
argue that there is no res connected to this post-confirmation adversary proceeding because “[t]he debtor’s
estate ceases to exist once confirmation has occurred.”
19-mc-07-CFC D.I. 32 at 17 (quoting Resorts Int’l, 372
F.3d at 165). But this quotation from Resorts International is misleadingly truncated and taken out of
context. The Third Circuit expressly held in Resorts
International that “post-confirmation bankruptcy jurisdiction is normally appropriate” when the asserted
claims have “a close nexus to the bankruptcy plan or
proceeding, as when a matter affects the interpretation, implementation, consummation, execution, or
administration of a confirmed plan or incorporated litigation trust agreement.” 372 F.3d at 168-69; see also
id. at 165 (noting that “[a]t its most literal level, it is
impossible for the bankrupt debtor’s estate to be affected by a post-confirmation dispute because the
debtor’s estate ceases to exist once confirmation has occurred[,] but that “courts do not usually apply [that]
test so literally as to entirely bar post-confirmation
bankruptcy jurisdiction”) (emphasis added).
In this case, the claims have the requisite close
nexus to the bankruptcy plan. Under the express terms
of the court-ordered Plan and the Liquidating Trust
Agreement it incorporated, the Liquidating Trustee is
obligated to collect, hold, and distribute the estate’s assets—including the EOF and its permits and Venoco’s
claims against the State Defendants—for the benefit of
the estate’s creditors. The Complaint thus implements,

44a
executes, and, if successful, will consummate the Plan.
Thus, the claims asserted in the adversary proceeding
are directly connected to the res that lies at the heart
of the Bankruptcy Court’s jurisdiction. Accordingly,
under Katz, the Complaint is not barred by Eleventh
Amendment immunity.3
C. Immunity under The California Tort
Claims Act
The State Defendant next argue that the California Tort Claims Act affords them “substantive
immunity from liability” that “exists independent of
constitutional protections relating to federal jurisdiction.” 19-mc-07-CFC D.I. 32 at 27. The State Defendants are correct that substantive immunity from
liability is distinct from the jurisdictional immunity
conferred by the Eleventh Amendment. See Lombardo
v. Pennsylvania, Dept. of Public Welfare, 540 F.3d 190,
194 (3d Cir. 2008) (“We can discern two distinct types
of state sovereign immunity: immunity from suit in
federal court and immunity from liability”); id. at
194-95 (“[I]mmunity from suit in the federal courts[]
[is] also known as Eleventh Amendment immunity.”).
But the State Defendants did not argue before the
3

Because I agree with the Bankruptcy Court’s determination that Eleventh Amendment sovereign immunity does not bar
the Liquidating Trustee’s claims, I need not address, and express
no opinion with respect to, the parties’ arguments regarding
whether the State Defendants waived Eleventh Amendment immunity by filing their $130 million claim and participating in the
bankruptcy proceedings. 19-mc-07-CFC D.I. 32 at 19-26; id., D.I.
34 at 25-44.

45a
Bankruptcy Court that the Complaint should be dismissed based on sovereign immunity derived from the
California Tort Claims Act (or any other source of state
law). Accordingly, they have waived the issue and I
may not consider it on appeal. In re Kaiser Grp. Int’l
Inc., 399 F.3d 558, 565 (3d Cir. 2005) (“[W]hen a party
fails to raise an issue in the bankruptcy court, the issue
is waived and may not be considered by the district
court on appeal.”).
I do not agree with the State Defendants’ argument that the issue of substantive immunity is “jurisdictional and may be raised at any time, including on
appeal.” 19-mc-07-CFC D.I. 32 at 27. Although “the
Eleventh Amendment defense sufficiently partakes of
the nature of a jurisdictional bar so that it need not be
raised in the trial court[,]” Edelman v. Jordan, 415 U.S.
651, 677-78 (1974), the question of a state’s substantive
immunity from liability does not similarly implicate
the jurisdiction of federal courts. The question raised
by substantive immunity from liability is whether
the state has agreed to subject itself to liability. The
question raised by Eleventh Amendment immunity is
whether the state has consented to be sued in a federal
court. The latter, to use the State Defendants’ words,
affords “constitutional protection[ ] relating to federal
jurisdiction,” 19-mc-07-CFC D.I. 32 at 27. That jurisdictional bar is “separate and distinct” from sovereign immunity from liability. Lombardo 540 F.2d at 199.
Accordingly, having failed to raise the issue of substantive immunity from liability with the Bankruptcy

46a
Court, the State Defendants have waived their right to
argue the issue on appeal.4
III. CONCLUSION
For the reasons discussed above, I will affirm the
Bankruptcy Court’s denial of the State Defendants’
motion to dismiss.
The Court will issue an Order consistent with this
Memorandum Opinion.

4

I note nonetheless for the benefit of the parties on remand
that the Court held in Katz that “[i]n ratifying the Bankruptcy
Clause [of the Constitution], the States acquiesced in a subordination of whatever sovereign immunity they might otherwise have
asserted in proceedings necessary to effectuate the in rem jurisdiction of the bankruptcy courts.” 546 U.S. at 378 (emphasis
added). Thus, the Court did not limit its holding to Eleventh
Amendment immunity.

47a
APPENDIX C
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF DELAWARE
In re

)
)
VENOCO, LLC, et al.,
)
Debtors.
)
EUGENE DAVIS, in his capacity )
)
as Liquidating Trustee of the
)
Venoco Liquidating Trust,
)
Plaintiffs,
)
v.
)
STATE OF CALIFORNIA, and )
CALIFORNIA STATE LANDS )
)
COMMISION,
)
Defendants.
)

Chapter 11
Case No.
17-10828 (KG)
(Jointly
Administered)

Adv. Pro. No.
18-50908 (KG)

Re: D.I. 8 and 12

OPINION
(Filed Jan. 2, 2019)
The issue before the Court is jurisdiction. Does the
Court which presided over Debtors’1 Chapter 11 bankruptcy case and entered the Order which confirmed
the plan of liquidation have jurisdiction to decide a
post-confirmation dispute in an adversary proceeding?
Jurisdiction is the seminal question in every case
and sometimes the final question. Here, the Court is
1

Debtors are: Venoco, LLC, TexCal Energy (LP) LLC, Whittier Pipeline Corporation, TexCal Energy (GP) LLC, Ellwood
Pipeline, Inc. and TexCal Energy South Texas, L.P.

48a
satisfied that it has jurisdiction, and it will not abstain
from hearing the adversary proceeding for reasons
which follow.
FACTS2
The Debtors filed their bankruptcy petitions on
April 17, 2017 (the “Petition Date”). The Court entered
its Order confirming Debtors’ Plan of Liquidation (the
“Plan”) on May 23, 2018, and the Plan became effective
on October 1, 2018. Complaint, ¶¶ 21-23. On October
16, 2018, the day after the Plan became effective, the
Liquidating Trustee (the “Trustee”) on behalf of the
Liquidating Trust (the “Trust”), filed Plaintiff ’s Original Complaint for Inverse Condemnation (the “Complaint”) as an adversary proceeding. The Trustee
named as defendants the State of California (the
“State”) and California State Lands Commission (the
“Commission,” and collectively with the State, the “Defendants”).
Debtor Venoco LLC (“Venoco”) was a party to
leases with the Defendants for drilling rights in the
South Ellwood Field (“SEF”) off the coast of California.
Venoco owned Platform Holly, an offshore oil platform
which it used to conduct drilling operations in the SEF.
Id., ¶ 2. An onshore facility known as the Ellwood
2

For purposes of deciding the motions to dismiss, the Court
will accept all of the factual allegations in the Complaint – not
conclusions – as true and construe the Complaint in the light most
favorable to plaintiff. Fowler v. UPMC Shadyside, 578 F. 3d 203,
210 (3d Cir. 2009).

49a
Onshore Facility (“EOF”)3, was used to process oil and
gas from Platform Holly. Id., Exhibit E, Attachment 1.
The EOF is located on land approximately 2.8 miles
north of Platform Holly. Platform Holly and the EOF
are integrated components of the oil production in the
SEF. Id., ¶¶ 24-35.
Now, the integrated components are needed to
plug and abandon the Platform Holly wells. Id., Exhibit A, page 2. On April 17, 2017, Debtors quitclaimed
the SEF Leases back to the Commission and thereby
relinquished all of their right, title and interest in the
SEF. The relinquishment included Platform Holly. Id.,
¶ 2. Afterwards, Debtors no longer had an interest in
the SEF Leases, the wells or the real property underlying the SEF Leases. Id. The Commission then became responsible for decommissioning Platform Holly
and the SEF. Id. The Commission could seek to recover
the costs from Debtors’ estate, or perhaps from predecessors who had operated the SEF such as ExxonMobil
Corporation. Id.
Three days before the quitclaims, Venoco and the
Commission entered into a Reimbursement for Temporary Services Agreement (“RTSA”) which provided that
the Commission would reimburse Venoco for the cost
to operate the SEF Leases on an interim basis and the
Commission received access and use rights to the EOF.
Id., ¶ 3. The RTSA terminated on September 15, 2017,

3

The EOF is situated on a triangular-shaped .46 acre site
which Venoco acquired from Mobil Oil Company in 1997. Id., ¶ 24.

50a
and Debtors transitioned the operations of the SEF to
the Commission’s third-party contractor. Id.
After the RTSA terminated, Venoco and the Commission entered into an agreement (the “Gap Agreement”) giving the Commission the temporary use of
the EOF to continue to decommission Platform Holly
and the SEF. Id., ¶ 4. The Commission agreed to pay
Venoco for its use of the EOF. Later, by its terms, Debtors terminated the Gap Agreement, as amended, effective October 15, 2018, and initiated the adversary
proceeding the next day. Id. The Defendants have not
fully paid Debtors for Defendants’ use and occupancy
of the EOF, which in part led to Debtors filing the instant adversary proceeding. Id., Exhibit D.
It appears that any interruption in the maintenance and operation of the EOF is a threat to the public health, safety and the environment. Id., ¶ 5. The
substantive issue in the adversary proceeding is
whether the Commission has the right to continue occupying and using the EOF without buying it from or
paying rent to Debtors.
DISCUSSION
On their face, the Defendants’ motions to dismiss
misleadingly appear to be straightforward and uncomplicated. The plaintiff is the post-confirmation Trustee
who is asserting the Trust’s state law claims of inverse

51a
condemnation.4 Further, the defendants are the State
of California, which appears to be clothed in sovereign
immunity, and one of its agencies. The Court would
readily dismiss the adversary proceeding were it not
for the facts that the adversary proceeding is an in rem
matter and that the Commission, on behalf of the
State, has filed a proof of claim with the Court seeking
approximately $130 million. The Trustee is seeking
“just compensation” for the taking of the EOF and, by
necessity, the proof will require a fair market valuation. Further, the adversary proceeding is an in rem
proceeding. See, e.g., U.S. v. 645 Acres of Land, 409 F. 3d
139,145-46 3d Cir. (2005) (condemnation proceedings
are in rem). Therefore, a closer look is warranted.
The Defendants make several arguments in support of their position that the Court lacks subject matter jurisdiction over Debtors’ adversary proceeding.
1. The Court does not have jurisdiction over the
State because of the Eleventh Amendment to the Constitution of the United States (the “Constitution”) and
sovereign immunity.

4

“Inverse condemnation” is a term describing the situation
in which the government takes but does not pay for private property. The “condemnation” is inverse because it is the reverse of
the normal situation where the government is the plaintiff and
the land owner is the defendant. “An inverse condemnation action
is a constitutionally adequate procedure for obtaining just compensation when the government seizes property without initiating formal condemnation procedures.” Peduto v. City of North
Wildwood, 878 F. 2d 725, 728 (3d Cir. 1989).

52a
2. The Court lacks “arising” in or “related to” jurisdiction.
3. Jurisdiction is lacking for “just compensation”
under the Fifth Amendment to the Constitution and
Section105(a) of the Bankruptcy Code.
4. The Trustee failed to complete his state law
remedies.
5.
tion.

The Court should decline to exercise jurisdic-

Finally, if they do not prevail on the jurisdiction defenses, Defendants argue that the Complaint fails to
state a claim.
The Court is satisfied that it has subject matter
jurisdiction, sovereign immunity does not apply or Defendants have waived sovereign immunity, the other
defenses are unremitting and Debtors have stated a
claim in the Complaint. The Court will discuss those
issues and others within. First, the Court will address
Defendants’ Eleventh Amendment arguments.
The Eleventh Amendment – Sovereign Immunity
The Eleventh Amendment to the Constitution of
the United States provides that:
The Judicial power of the United States shall
not be construed to extend to any suit in law
or equity, commenced or prosecuted against
one of the United States by Citizens of

53a
another State, or by Citizens or Subjects of
any Foreign State.
U.S. Const. amend. XI. The principal modern case
which addresses the Eleventh Amendment and sovereign immunity held that a statute which permitted Indian tribes to sue states in federal court was
unconstitutional. Seminole Tribe of Florida v. Florida,
517 U.S. 44 (1996). The Supreme Court held that
“[e]ven when the Constitution vests in Congress complete law-making authority over a particular area, the
Eleventh Amendment prevents congressional authorization of suits by private parties against unconsenting
states.” Id. at 72. Should Congress wish to enact a statute to end sovereign immunity that a state enjoys, it
must do so by an unequivocal expression that it intended to overturn immunity, and must be acting pursuant to a valid grant of power in the Constitution.
Seminole Tribe, 517 U.S. at 72-73.
Section 106 of the Bankruptcy Code provides that
“sovereign immunity is abrogated as to a governmental unit” with respect to many sections of the Bankruptcy Code. While it would appear that Section 106
defeats many claims of sovereign immunity, the Third
Circuit disagrees. In a carefully written opinion, the
Third Circuit ruled that Section 106 is unconstitutional. See Sacred Heart Hospital v. Dep’t of Public Welfare (In re Sacred Heart Hospital), 133 F. 3d 237, 243
(3d Cir. 1998). Accordingly, Section 106 is unavailable
to support Debtors’ case against the State.

54a
Earlier this year, Chief Judge Christopher S.
Sontchi of the Delaware Bankruptcy Court, issued a
“scholarly opinion” with “intricate dissection”5 of the
law in which he clarified the intersection of bankruptcy
law and sovereign immunity. See In re La Paloma Generating Company, 588 B.R. 695 (Bankr. D. Del. 2018).
The Court reads La Paloma and Chief Judge Sontchi’s
careful analysis of Supreme Court and Third Circuit
precedents to stand for the proposition that the in rem
jurisdiction of the bankruptcy court defeats a claim of
sovereign immunity. Id., 588 B.R. at 727-32. The condemnation case is an in rem proceeding to which the
Court’s jurisdiction attaches. Peduto, 878 F. 2d at 728.
There are several other reasons which cause the
Court at the motion to dismiss stage to deny dismissal
on account of sovereign immunity. First, the Commission and the State are both at risk for liability because
the Commission was acting on behalf of the State.6 At
this early stage before there has been any discovery,
the Court views the State and the Commission as one
and the actions of the Commission are attributable to
the State. Second, the Commission filed a $130 million
5

The quoted words are the view of William Rochelle, Editor
at Large of the American Bankruptcy Institute. The praise appears in Mr. Rochelle’s August 1, 2018 column. The Court fully
agrees with Mr. Rochelle’s assessment.
6
See, e.g., City of Long Beach v. Mansell, 3 Cal. 3d 462, 468
n. 3 (1970) (the State of California acted through the State Lands
Commission); State of California ex rel. State Lands Comm’n v.
County of Orange, 134 Cal. App. 3d 20, 22 (1982) (making reference to the State of California acting through the State Lands
Commission).

55a
proof of claim in the bankruptcy case for matters related to the Defendants’ abandonment of Platform
Holly and the EOF. It is impossible to make sense of
proceeding with the Defendants’ claim in Delaware
and the inverse condemnation case proceeding across
the country in California. Third, this is an inverse condemnation case. Governmental bodies (and often
states) are natural parties in such suits given the very
nature of the action. See, e.g., Palazzolo v. Rhode Island, 533 U.S. 606 (2001). For these reasons, sovereign
immunity does not command the Defendants’ dismissal.
Jurisdiction
The State and the Commission have raised several
jurisdiction related defenses which the Court will now
address.
a. Core “Arising In” Jurisdiction
Case law has greatly clarified the principles of core
– “arising in” and non-core – “related to” jurisdiction.
The State and the Commission argue that neither
principle applies to them. The Court disagrees. There
are many decisions which address the issues. One of
the leading decisions on the history of confirmation, releases and jurisdiction can be found in this district
from the learned and thorough decisions in In re Millennium Lab Holdings II, LLC, 575 B.R. 252 (Bankr. D.
Del. 2017), aff ’d, 591 B.R. 559 (D. Del. 2018). In Millenium, the bankruptcy court and the district court on

56a
appeal discussed at length bankruptcy jurisdiction and
core and non-core jurisdiction and the effectiveness of
non-consensual third-party releases. The bankruptcy
court and the district court agreed that the bankruptcy
court had jurisdiction to grant third-party releases.
Core versus noncore and “arising in” and “related
to” principles were fully addressed by the Third Circuit
in Resorts Int’l Inc. v. Price Waterhouse & Co., LLP (In
re Resorts Int’l, Inc.), 372 F. 3d 154 (3d Cir. 2004)7. Resorts explains that bankruptcy courts have jurisdiction
over cases under title 11, matters arising under title
11, proceedings which arise in a case under title 11 and
proceedings which are related to a case under title 11.
Id. at 162. The first three categories are considered
core, and those in the final category are considered
non-core. In Resorts, the Third Circuit held that:
1. A core proceeding raises rights which the
Bankruptcy Code enumerates or which by their very
nature would only arise in a bankruptcy case. Id. at
162-163, citing Torkelson v. Maggio, (In re the Guild
and Gallery Plus, Inc.) 72 F. 3d 1171, 1178 (3d Cir.
1996). The Third Circuit noted that 28 U.S.C.
§ 157(b)(2) provides examples of core proceedings, including proceedings that affect the liquidation of assets of the estate. Resorts, 372 F. 3d at 162. The Third
Circuit further explained that a core proceeding “ ‘invokes a substantive right provided by title 11’ ” or one
7

In Resorts, the issue was whether post-confirmation the
bankruptcy court had jurisdiction over an accounting malpractice
case.

57a
that “ ‘by its nature could only arise in the context of a
bankruptcy case.’ ” Id., 372 F. 3d at 162-63, quoting In
re Guild & Gallery Plus, 72 F. 3d at 1178, quoting In re
Marcus Hook Dev. Park, Inc., 943 F. 2d 261, 264 (3d Cir.
1991).
2. Bankruptcy courts have jurisdiction if the outcome could “conceivably have an effect on the bankruptcy estate. Id. at 164. A matter of this nature is
“related to” the bankruptcy case. See Pacor, Inc. v. Higgins, 743 F. 2d 984, 994 (3d Cir. 1984). The Third Circuit stated that:
With “related to” jurisdiction, Congress intended to grant bankruptcy courts “comprehensive jurisdiction” so that they could “deal
efficiently and expeditiously” with matters
connected with the bankruptcy estate.
Resorts, 372 F. 3d at 163-64, citing Celotex Corp. v. Edwards, 514 U.S. 300, 308 (1995) which in turn, quoted
Pacor, 743 F. 2d at 994. One of these “effects” is a challenge to the fundamental integrity of the bankruptcy
process. See Emerald Cap. Advisors Corp. v. Karma Automotive, LLC (In re FAH Liquidating Corp.), 567 B.R.
464 (Bankr. D. Del. 2017), in which the Court found
that “arising in” jurisdiction applied because the
claims suggested an issue with the integrity of the
bankruptcy process.
3. Bankruptcy courts have jurisdiction if the proceeding could “conceivably” have “any effect” on the
bankruptcy estate and its administration, quoting
Pacor, 743 F. 2d at 994.

58a
4. After plan confirmation, jurisdiction is more
tenuous but “the essential inquiry appears to be
whether there is a close nexus to the bankruptcy plan
or proceeding sufficient to uphold bankruptcy court jurisdiction over the matter.” Resorts, 372 F. 3d at 16667.
The Trustee argues that the Court has core, “arising in” jurisdiction by virtue of the “intimate connection between this [Adversary] Proceeding and the
underlying bankruptcy.” Plaintiff ’s Answering Brief,
page 20. For this proposition, the Trustee alleges that:
(1) Defendants’ actions gave Debtors no option except
to protect their estate and (2) Defendants actively participated in and availed themselves of the Court and
its processes. The Trustee asserts that the adversary
proceeding addresses the administration of the estate
and is therefore one of the “core” categories under 28
U.S.C. § 157(b)(2)(A). Next, the Trustee claims that Defendants continuing occupation and use of the EOF
frustrates the liquidation of the estate’s assets which
qualifies as “core” under 28 U.S.C. § 157(b)(2)(A). Finally, the Trustee’s Complaint constitutes a counterclaim which qualifies it for core treatment pursuant to
28 U.S.C. § 157(b)(2)(C).
The Defendants answer the Trustee’s arguments
by arguing themselves that the inverse condemnation
action (1) belongs in state court, (2) is not a proceeding
seeking to enforce or interpret a Plan provision, and (3)
is not a counterclaim or in the nature of a counterclaim.

59a
The Court turns to decisional law and concludes
that the adversary proceeding is core. The Resorts decision backs the Court’s conclusion. Surely the adversary proceeding is not collateral to the bankruptcy
case, it is directly relevant to the Defendants’ proof of
claim. Resorts decided that the proceeding in question
was not core because it would have only an incidental
effect on the reorganized debtor. Resorts, 372 F. 3d at
169. Here, the Defendants’ proof of claim and the adversary proceeding have an enormous affect on Debtors’ estate. Further, and unlike Resorts, although the
potential to add to the Trust’s assets “does not necessarily create a close nexus sufficient to confer ‘related
to’ bankruptcy court jurisdiction post-confirmation,”
(id. at 170), the adversary proceeding certainly and
strongly bears weight on the Defendants’ proof of
claim. Although the quoted language refers to non-core
“related to” jurisdiction, the point to be made also applies to “arising in” jurisdiction.
The adversary proceeding will not simply increase
the Trust’s assets if successful. Instead, the Trustee
seeks either to compel a resolution of the ownership of
the EOF or as a counter to Defendants’ proof of claim.
Estate counterclaims against persons filing claims is
a category enumerated as providing core “arising in”
jurisdiction. In Penson Technologies LLC v. Schonfeld
Grp. Holdings LLC (In re Penson Worldwide), 587 B.R. 6,
12-13 (Bankr. D. Del. 2018), a matter recently decided,
a creditor filed a proof of claim based on a contract, to
which the debtor filed an adversary proceeding. The
creditor-defendant asked the court “to dismiss the

60a
matter, enforce a forum selection clause, abstain or
otherwise transfer the case to a court in New York.”
587 B.R. at 8. The court held that an adversary proceeding based on the same contract was a core proceeding under 28 U.S.C. § 157(b)(2)(C) and quoted the
Supreme Court, which had written that, “He who invokes the aid of the bankruptcy court by offering a
proof of claim and demanding its allowance must abide
the consequences of that procedure.” Stern v. Marshall,
131 S. Ct. 2594, 2616 (2011). It is clear that Defendants
have sought the bankruptcy court’s assistance and
therefore should answer to the Complaint in Delaware
bankruptcy court.
In ResCap Liq. Trust v. PHH Mortg. Corp., 518 B.R.
259, 264 (S.D.N.Y. 2014), the district court ruled that
an adversary proceeding which the debtor filed in response to a creditor’s proof of claim was a counterclaim
even though it was based on state – not bankruptcy –
law and was not related to the proof of claim.8 Both
Penson Techs. and ResCap support the Court’s finding
that the adversary proceeding qualifies as a counterclaim to the Defendants’ proof of claim. Therefore, the
adversary proceeding is core and will almost certainly
be resolved, or is resolvable, in the claim proceeding,
i.e., Defendants’ $130 million claim arising from Platform Holly and the EOF.

8

For reasons the Court does not find exist here, the district
court withdrew the reference and transferred the adversary proceeding from New York to Minnesota.

61a
It is for these reasons that the Court deems the
adversary proceeding to “arise in” the bankruptcy case
and that the Court has jurisdiction. The adversary proceeding draws on rights which in the context of the
case could arise only in bankruptcy, has a significant
affect on the administration of the estate and, finally,
is a counterclaim to Defendants’ proof of claim.
b. Non-Core “Related To” Jurisdiction
If the Court is mistaken and it does not have core
“arising in” jurisdiction, it assuredly has “related to”
jurisdiction. The concept of a matter sustaining “related to” jurisdiction is very important in the instant
case. If the Trustee is successful in his suit and obtains
a judgment, it would assuredly impact the outcome of
the Defendants’ proof of claim proceeding and any distribution to creditors, thus establishing that the adversary proceeding bears a close nexus to the Plan and to
the administration of the estate. The test for “related
to” jurisdiction is that a close nexus exists between the
adversary proceeding and the bankruptcy plan. Resorts, 372 F. 3d at 166-67. The Third Circuit has ruled
that a close nexus exists when the matter at hand affects “the interpretation, implementation, consummation, execution, or administration of a confirmed plan
or incorporated litigation trust agreement.” Id. at 16869. Here, a decision on the Trust’s claims in the Complaint will assuredly affect the administration of the
Plan and Trust Agreement. In fact, there is a stark difference between Resorts in which the Third Circuit
found there was no “related to” jurisdiction and the

62a
present adversary proceeding. The litigation trustee
filed the malpractice action in Resorts almost seven
years after the debtor’s plan went effective. In the adversary proceeding, the Trustee filed the case within
one month of the Plan going effective, which leads the
Court to believe that a close nexus exists between the
adversary proceeding and the Plan.
In addition, helpful in the Court’s thinking is the
Supreme Court’s decision in Executive Benefits Insurance Agency v. Arkison, 573 U.S. 25 (2014). There, a
bankruptcy trustee sued under a fraudulent transfer
theory to recover commissions paid to a noncreditor.
The issue the Supreme Court addressed was how
courts should proceed when they encounter a non-core
claim. In discussing the differences between core and
non-core claims, the Supreme Court ruled that with respect to noncore claims, a bankruptcy court can adjudicate such claims provided it issues proposed findings
of fact and conclusions of law which a district court
then reviews de novo. In other words, even a bankruptcy court’s proposed findings of fact and conclusions
of law in a non-core proceeding can be rectified by the
district court’s review and treatment of a decision as
proposed findings of fact and conclusions of law. Id.,
573 U.S. at 39-40.
Other Arguments
Defendants make other arguments why the Trustee’s adversary proceeding is futile.

63a
a. Failure to State a Claim
In short, Defendants argue that the Trustee has
failed to state a claim because the State and the Commission are separate entities and he has not pleaded a
taking or damaging of the EOF. The Defendants argue
that the Complaint must therefore be dismissed.
The Court finds that the Trustee has borne the
burden which the Supreme Court established in Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) and Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007) and the
Third Circuit in Fowler, 578 F. 3d at 210. The Trustee
has stated in short and plain statements the plausible
claim that Defendants are responsible for the inverse
condemnation of the EOF such that discovery may
establish the elements that Defendants complain do
not appear in the Complaint. Further, the Third Circuit stated in a two-part test in applying Iqbal:
First, the factual and legal elements of a claim
should be separated. The [court] must accept
all of the complaint’s well-pleaded facts as
true, but may disregard any legal conclusions.
Second, a [court] must then determine
whether the facts alleged in the complaint are
sufficient to show that the plaintiff has a plausible claim for relief.
Fowler, 578 F. 3d at 210-11. The Trustee has adequately stated plausible claims and is entitled to establish the validity of the claims through discovery
and, if necessary, through trial.

64a
b. Failure to Exhaust State Law Remedies
Defendants argue that the Trustee cannot pursue
his claim for just compensation, citing Williamson
County Regional Planning Comms’n v. Hamilton Bank
of Johnson City, 473 U.S. 172, 195 (1985). The Supreme
Court held on the facts of Williamson County that until
a land owner used a state’s procedure, he could not
claim the absence of just compensation. But as the
Trustee counters, Williamson County9 was not a bankruptcy case and to find that the Trustee has not exhausted his state court remedies would deprive the
Trustee of his choice of forum. In PVI Assocs. v. Redevelopment Corp. (In re PVI Assocs.), 181 B.R. 210, 218
(Bankr. E.D. Pa. 1995), the court did not apply Williamson County. The Court denied a motion to dismiss an
inverse condemnation case in which the defendant argued that debtor failed to exhaust state remedies. Defendants counter that other courts have continued to
follow Williamson County – but do not cite a case from
the Third Circuit. Defendants also argue that PVI was
decided as it was because dismissal could have affected
debtor’s reorganization while here the Court has already confirmed the Plan. The Court is satisfied on balance that the Court does not have the basis to deny the
Debtors their choice of forum based upon Williamson
County to which there are questions of its reliability
9

The Trustee wrote that the requirements in Williamson
County and “forcing a plaintiff to pursue piecemeal litigation or
manipulation by defendants might weigh against applying Williamson,” citing Knick v. Twp. of Scott, 862 F. 3d 310, 327 (3d Cir.
2017), cert. granted in part sub nom. Knick v. Twp. Of Scott, P.A.,
138 S. Ct. 1262 (2018). Trustee’s Brief, page 18.

65a
and impact. Accordingly, the Trustee was not required
to exhaust state procedures.
c.

Police Powers

The State argues that the California Police Powers
Doctrine bars the adversary proceeding because a
valid exercise of the State’s police powers often (not always) does not require compensation even if the State
damages the property. The State cites Customer Co. v.
City of Sacremento, 10 Cal. 4th 368, 383 (Cal. 1995).
Cases, however, establish that the Police Powers doctrine applies only in narrow circumstances and when
government acts because of “public necessity and to
avert impending peril.” See Holtz v. Superior Court of
San Francisco, 3 Cal. 3d 296, 305. Whether the Defendants’ use of the EOF satisfies the test is an issue of fact
which the Court is fully capable of determining.
Abstention
The judicially created doctrine of “abstention” dictates that a federal court will decline to exercise its jurisdiction and will defer to a state court which will then
have the opportunity to decide the issue. The Court
recognizes that abstention is an extraordinary exception to its responsibility to rule on matters before it.
The Court is therefore generally reluctant to abstain
from a case properly before it. The instant matter represents a unique set of facts upon which the Court bases its decision not to abstain.

66a
The applicable statute is 28 U.S.C. § 1334(c)(1)
which states:
Except with respect to a case under chapter
15 of title 11, nothing in this section prevents
a district court in the interest of justice, or in
the interest of comity with State courts or respect for State law, from abstaining from hearing a particular proceeding arising under title
11 or arising in or related to a case under title
11.
The Court considers twelve factors in determining
whether or not to abstain. The factors are:
(1)

the effect or lack thereof on the efficient
administration of the estate if the Court
abstains;

(2)

extent to which state law issues predominate over bankruptcy issues;

(3)

difficult or unsettled nature of applicable law;

(4)

presence of related proceeding commenced in state court or other nonbankruptcy proceeding;

(5)

jurisdictional basis, if any, other than
§ 1334;

(6)

degree of relatedness or remoteness of
proceeding to main bankruptcy case;

(7)

the substance rather than the form of an
asserted core proceeding;

67a
(8)

the feasibility of severing state law
claims from core bankruptcy matters to
allow judgments to be entered in state
court with enforcement left to the bankruptcy court;

(9)

the burden of the bankruptcy court’s
docket;

(10) the likelihood that the commencement
of the proceeding in bankruptcy court involves forum shopping by one of the parties;
(11) the existence of a right to a jury trial;
(12) the presence in the proceeding of nondebtor parties;
DHP Holdings II Corp. v. Peter Skop Industries, Inc.,
(In re DHP Holdings II Corp.) 435 B.R. 220, 223-24
(Bankr. D. Del. 2010). Evaluating the factors is not
“merely a mathematical exercise.” Id. at 234, quoting
from Trans World Airlines, Inc. v. Karabu Corp. (In re
Trans World Airlines, Inc.) 196 B.R. 711, 715 (Bankr. D.
Del. 1996). Of the twelve factors, most important are
(1) the effect on the administration of the estate, (2)
whether the claim involves only state law issues, and
(7) whether the proceeding is core or non-core. See, e.g.,
Fruit of the Loom, Inc. v. Magnetek, Inc. (In re Fruit of
the Loom, Inc.), 407 B.R. 593, 600 (Bankr. D. Del. 2009).
In evaluating the factors, it is clear to the Court
that some of the factors favor the Trustee while others
favor Defendants. The Court will not just mathematically add the factors to determine the party which has

68a
the most factors in their column. Instead, the Court
will take into consideration and discuss what it considers to be the more important factors in this case.
1. Effect on Administration of the Estate if the
Court Abstains
This factor clearly weighs in the Trust’s favor and
against abstention. The Defendants have a claim pending and the Trustee has the adversary proceeding
which, if successful, will negate some or all of the
claim.
2. Extent to Which State Law Issues Predominate Over Bankruptcy Issues
Clearly, state law issues predominate, which favors the Defendants. The Court is, however, very accustomed to deciding state law issues which somewhat
reduces the significance of this factor.
3. Core v. Non-Core Status
The Court has found that the adversary proceeding is core which therefore gives the advantage to
Debtors. However, even if the adversary proceeding is
non-core, the relationship to the Chapter 11 case is
such strength that the advantage remains with Debtors.

69a
4. Degree of Relatedness or Remoteness of the
Adversary Proceeding to the Main Bankruptcy Case
There is a close relationship between the adversary proceeding and the main bankruptcy case, which
favors not abstaining.
5. Commencement in Bankruptcy Court Involves Forum Shopping
The Court is of the view that many, if not most,
filings involve forum shopping. Parties file cases where
they think they will do best. Here, however, the Court
is satisfied that the Trustee filed the adversary proceeding in the bankruptcy court because there was a
case and a proof of claim already present here. The
Court finds that the Trustee did not forum shop when
he filed here. This factor favors the Trustee.
6. The Existence of a Right to Jury Trial
It is not clear that the right to a jury trial of the
adversary proceeding exists because it is a core proceeding. If, however, the District Court should withdraw the reference, it is beyond a mere possibility that
the District Court would direct the Court to oversee
pretrial matters. This factor is a draw.
The Court will not abstain. After analyzing all of
the twelve factors and especially the factors it considers most important, the Court concludes that it would

70a
be inappropriate to abstain. The Penson court stated
the Court’s conclusion very aptly when it wrote:
Fundamentally, this adversary proceeding involves an objection to a proof of claim. That it
involves resolution of state law issues is thus
unremarkable. The state law issues are not
complex, and judicial economy suggests that
the objection to the proof of claim and Plaintiff ’s counter-claims – which are inextricably
interlinked with Defendant’s proof of claim –
be resolved by one court. That court should be
the bankruptcy court as the claim allowance
process is a quintessential bankruptcy court
function. None of the factors that favor abstention convince me that, in this particular
case, the interests of justice merits a different
outcome. As a result, I decline to abstain.
Penson, 587 B.R. at 24. The Court could not state its
conclusion any better.
CONCLUSION
The Court finds that it has jurisdiction over the
adversary proceeding. The Court will also not abstain.
The parties should commence their discovery promptly,
because the Court has scheduled trial to begin on
March 19, 2019.
Dated:
January 2, 2019

/s/ Kevin Gross
KEVIN GROSS, U.S.B.J.

